<html>
<title> - ACCELERATING AGRICULTURE: HOW FEDERAL REGULATIONS IMPACT AMERICA'S SMALL FARMERS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




 
  ACCELERATING AGRICULTURE: HOW FEDERAL REGULATIONS IMPACT AMERICA'S 
                             SMALL FARMERS

=======================================================================

                                HEARING

                               before the

             SUBCOMMITTEE ON AGRICULTURE, ENERGY, AND TRADE

                                 OF THE

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD
                             JUNE 21, 2018

                               __________
                               
                               
                               

  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]             
  
  
                                 

            Small Business Committee Document Number 115-081
             Available via the GPO Website: www.govinfo.gov         
             
             
                             _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 30-506                 WASHINGTON : 2019                  
 
 
 
 
 
 
 
             
                   HOUSE COMMITTEE ON SMALL BUSINESS

                      STEVE CHABOT, Ohio, Chairman
                            STEVE KING, Iowa
                      BLAINE LUETKEMEYER, Missouri
                          DAVE BRAT, Virginia
             AUMUA AMATA COLEMAN RADEWAGEN, American Samoa
                        STEVE KNIGHT, California
                        TRENT KELLY, Mississippi
                             ROD BLUM, Iowa
                         JAMES COMER, Kentucky
                 JENNIFFER GONZALEZ-COLON, Puerto Rico
                    BRIAN FITZPATRICK, Pennsylvania
                         ROGER MARSHALL, Kansas
                      RALPH NORMAN, South Carolina
                           JOHN CURTIS, Utah
               NYDIA VELAZQUEZ, New York, Ranking Member
                       DWIGHT EVANS, Pennsylvania
                       STEPHANIE MURPHY, Florida
                        AL LAWSON, JR., Florida
                        YVETTE CLARKE, New York
                          JUDY CHU, California
                       ALMA ADAMS, North Carolina
                      ADRIANO ESPAILLAT, New York
                        BRAD SCHNEIDER, Illinois
                                 VACANT

               Kevin Fitzpatrick, Majority Staff Director
      Jan Oliver, Majority Deputy Staff Director and Chief Counsel
                     Adam Minehardt, Staff Director
                     
                     
                            C O N T E N T S

                           OPENING STATEMENTS

Hon. Rod Blum....................................................     1
Hon. Brad Schneider..............................................     2

                               WITNESSES

Mr. Craig Martins, Operations Manager, Three Rivers FS, 
  Dyersville, IA, testifying on behalf of the National Council of 
  Farmer Cooperatives and GROWNMARK, Inc.........................     4
Mr. John Weber, Owner, Valley Lane Farms Inc., Dysart, IA, 
  testifying on behalf of the National Pork Producers Council....     6
Mr. Glenn Brunkow, Co-Owner, Brush Creek Cattle Company, Wamego, 
  KS, testifying on behalf of the American Farm Bureau Federation     7
Ms. Laurie Ristino, Associate Professor of Law, Director, Center 
  for Agriculture and Food Systems, Vermont Law School, South 
  Royalton, VT...................................................     9

                                APPENDIX

Prepared Statements:
    Mr. Craig Martins, Operations Manager, Three Rivers FS, 
      Dyersville, IA, testifying on behalf of the National 
      Council of Farmer Cooperatives and GROWNMARK, Inc..........    26
    Mr. John Weber, Owner, Valley Lane Farms Inc., Dysart, IA, 
      testifying on behalf of the National Pork Producers Council    39
    Mr. Glenn Brunkow, Co-Owner, Brush Creek Cattle Company, 
      Wamego, KS, testifying on behalf of the American Farm 
      Bureau Federation..........................................    53
    Ms. Laurie Ristino, Associate Professor of Law, Director, 
      Center for Agriculture and Food Systems, Vermont Law 
      School, South Royalton, VT.................................    78
Questions for the Record:
    None.
Answers for the Record:
    None.
Additional Material for the Record:
    None.


  ACCELERATING AGRICULTURE: HOW FEDERAL REGULATIONS IMPACT AMERICA'S 
                             SMALL FARMERS

                              ----------                              


                        THURSDAY, JUNE 21, 2018

                  House of Representatives,
               Committee on Small Business,
     Subcommittee on Agriculture, Energy, and Trade
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:32 a.m., in 
Room 2360, Rayburn House Office Building. Hon. Rod Blum 
[chairman of the Subcommittee] presiding.
    Present: Representatives Blum, Chabot, King, Leutkemeyer, 
Comer, Marshall, and Schneider.
    Chairman BLUM. Good morning. I call this hearing to order. 
Thank you for joining us for today's Subcommittee on 
Agriculture, Energy and Trade hearing. Welcome.
    Today, the Subcommittee will examine how federal 
regulations affect America's small farmers. Family and small 
farms play a vital role in the American economy. More than 90 
percent of farms in the United States are considered small, and 
most small farms are family owned and operated. These farmers 
account for 90 percent of America's farm production. Small 
farms also operate half of the farmland in the United States.
    My home state of Iowa has the third highest number of farms 
in the country, and Iowa is ranked number one in export value 
for pork, number one for corn, foods, and other grains. I just 
had to get that in there. So farming is especially important in 
Iowa and in my district.
    The agriculture industry also plays an important role in 
providing jobs. In 2016, direct on-farm employment accounted 
for over 2 million jobs, or 1.4 percent of total employment in 
the United States. I consistently hear from farmers in my 
district in Iowa about the challenges they face, including 
federal regulations. The House Small Business Committee has 
held many hearings on the top of regulations and this continues 
to be a problem for small businesses across the country. Our 
small farmers are no exception.
    The current regulatory environment in the agriculture 
industry disproportionately burdens small farmers. With many 
regulations taking a ``one-size-fits-all'' approach and many 
federal agencies having the authority to regulate agriculture, 
small farmers are forced to comply with expensive, confusing, 
and time-consuming regulations, which in turn negatively 
impacts the American economy.
    Today, we will hear from farmers and experts who are 
experiencing the impact of regulations out in the field--no pun 
intended. They will provide real examples of what it is like 
for a small farmers to navigate the confusing regulatory 
landscape. I look forward to discussing this important topic 
and what Congress can do to help provide some regulatory relief 
to our nation's farmers.
    I now yield to the Ranking Member of the Subcommittee on 
Agriculture, Energy and Trade, Mr. Schneider, for his opening 
statement.
    Mr. SCHNEIDER. Thank you, Mr. Chairman. And again, I am 
glad we are able to have this hearing, and I thank the 
witnesses for joining us today to share their perspectives and 
insights on this issue.
    Since the founding of this Nation, farms and farmers have 
always played a significant role in the United States' economy. 
They provide the country and the world with enough food to eat, 
fuel jobs for workers up and down the supply chain, and keep 
American agriculture at the forefront of innovation.
    Many of these farmers are small businesses who continue to 
work hard to support themselves and their customers in an 
increasingly global market. It is our role in Congress to help 
support farmers so that they can continue their work growing 
our food and our economy and make our farming communities 
strong. Today, we will examine how Federal regulations impact 
America's small farms.
    Regulations serve an important purpose in helping to keep 
us safe. Agriculture regulations help to improve water quality, 
protect animal welfare, and consumer welfare through food 
safety and labeling regulations. Without these safeguards, 
small farms and producers could be hurt by illicit business 
practices, left in the dark when combatting nationwide 
challenge like avian influenza and struggling without Federal 
assistance on issues ranging from organic standards to 
conservation practices.
    Despite these important aspects of regulations, it is also 
important to recognize that regulation can also place a burden 
on small businesses, especially those in the agriculture 
industry. Farmers and ranchers are faced with a flurry of 
requirements through a variety of regulations from the 
Endangered Species Act and the Food Safety Modernization Act, 
to the Federal Land Policy Management Act to name just a few. 
Compounding much of the complexity is the overlap of agency 
jurisdiction in a variety of farming practices. The end result 
is often burdensome on farmers who just want to manage their 
farms.
    It is critical that agencies are considering the economic 
impact of the regulations on small farms. At the same time, 
Congress needs to know what steps are needed to help agencies 
achieve this goal. Adequate communication and transparency are 
critical to an effective system of regulation. An open line of 
communication can ensure that regulations are written 
effectively, minimizing unnecessary burdens for small business. 
And that is what I hope to achieve in today's hearing.
    Congress plays an important role in ensuring that the 
American public is protected while simultaneously ensuring that 
regulations are not too burdensome on farmers. It is therefore 
irresponsible for the government to haphazardly create change 
or get rid of a regulation without thoroughly looking at and 
understanding the impact of the long-term consequences.
    I look forward to the insights this pane will provide on 
this topic, and again, I want to thank the witnesses and I 
yield back.
    Chairman BLUM. Thank you, Mr. Schneider.
    If Committee members have an opening statement prepared, I 
ask that it be submitted for the record.
    I will take a minute to explain the timing lights for you. 
You will each have 5 minutes to deliver your testimony. The 
light starts out as green. When you have one minute remaining, 
the light will turn to yellow. That does not mean you speed up 
like with the traffic lights. And finally, at the end of your 5 
minutes--well, maybe you should speed up--it will turn red. And 
I ask, please, that you adhere to that time limit.
    I would now like to formally introduce our witnesses.
    I am pleased to introduce our first witness, Mr. Craig 
Martins, who is a constituent of mine from the district and the 
great state of Iowa. Mr. Martins is the Operations Manager of 
Three Rivers FS in Dyersville, Iowa, a locally-owned 
agriculture cooperative serving producers in Northeast Iowa. 
His responsibility includes developing and leading the sales, 
operations, and service teams within the cooperative. Mr. 
Martins is testifying on behalf of the National Council of 
Farmer Cooperatives and GROWMARK, Inc., an agriculture 
cooperative based in Illinois. Thank you for joining us today, 
Mr. Martins, and welcome.
    I am also pleased to introduce our second witness, who is 
also a constituent from my district in Iowa, Mr. John Weber is 
the owner of Valley Lane Farms, a gain and livestock operation 
in East Central Iowa. He has been in pork production for 44 
years and has lifelong experience in grain and livestock 
farming. Mr. Weber served as the President for the National 
Pork Producers Council (NPPC) from March 2016 to March 2017, 
and will be testifying on behalf of NPPC today. Thank you for 
joining us today, Mr. Weber, and welcome as well.
    And I now yield to the gentleman from Kansas, Dr. Marshall, 
to introduce our third witness.
    Mr. MARSHALL. Well, Mr. Chairman, thank you so much. And we 
will see if we cannot kind of balance out this witnesses' 
testimony up here.
    I am very proud to introduce Mr. Glenn Brunkow. As you 
know, Glenn is from the largest agriculture producing district 
in the country, and Glenn, much like myself, is a fifth 
generation farmer. They grow corn, soybeans, wheat, hay, and 
raise cattle and sheep, so he brings a great diversity to talk 
about some of the regulations we have going on here. Probably 
most importantly, he is from the top agriculture university in 
the country, having a bachelor's degree and a master's degree 
from the home of the ever-fighting mighty Kansas State 
Wildcats. So without further ado, Glenn, we welcome you and 
look forward to your testimony. I should add, Glenn is here 
representing the American Farm Bureau Federation as well, 
something near and dear to my heart back home as to all of us. 
Thank you.
    Chairman BLUM. Thank you, Dr. Marshall.
    I now yield to our Ranking Member, Mr. Schneider, for the 
introduction of our final witness.
    Mr. SCHNEIDER. Thank you.
    It is my pleasure to introduce Professor Laurie Ristino, 
the director of the Center for Agriculture and Food Systems and 
associate professor of law at Vermont Law School. She is a 
legal and policy expert on food security, the Farm Bill 
conservation title, ecosystem services, and private land 
conservation. She was previously an attorney at USDA and served 
during the President George H. W. Bush administration and 
President Barack Obama administration. Professor Ristino has a 
BA from the University of Michigan, a JD from the University of 
Iowa, and an MPA from George Mason University. Welcome, 
Professor Ristino.
    Chairman BLUM. Thank you, Mr. Schneider.
    I think you are outranked here and outweighed, Dr. 
Marshall. University of Iowa. Good stuff.
    Welcome to our witnesses today to you all.
    I now recognize Mr. Martins for 5 minutes.

 STATEMENTS OF CRAIG MARTINS, OPERATIONS MANAGER, THREE RIVERS 
 FS; JOHN WEBER OWNER VALLEY LANE FARMS INC.; GLENN BRUNKOW CO-
  OWNER BRUSH CREEK CATTLE COMPANY; LAURIE RISTINO ASSOCIATE 
  PROFESSOR OF LAW DIRECTOR, CENTER FOR AGRICULTURE AND FOOD 
                   SYSTEMS VERMONT LAW SCHOOL

                   STATEMENT OF CRAIG MARTINS

    Mr. MARTINS. Chairman Blum, Ranking Member Schneider, and 
members of the Subcommittee. On behalf of National Council of 
Farmer Cooperatives and GROWMARK, Inc., I appreciate the 
opportunity to testify this morning.
    I applaud this Subcommittee for taking a closer look at how 
regulations affect small business owners. Expensive and 
confusing regulations are detrimental to all the business 
owners, including farmers and their co-ops. This morning, I 
would like to highlight two regulatory efforts that will have a 
direct impact on my co-op.
    The first is OSHA crane and derrick construction rule and 
its impact on propane suppliers. Propane is an important part 
of on-farm energy use. Propane sales, service, and delivery are 
a critical part of many co-op business strategies. Over 35 NCFC 
members provide propane services, including GROWMARK and its 
co-op owners. However, the crane rule is making it harder and 
more expensive for co-ops to do so. It imposes certification 
requirements on crane operators, which include propane 
technicians, operating on what OSHA defines as a construction 
site or performing a construction activity.
    There are several problems with this rule. First, the 
regulations are burdensome and cause duplication since propane 
companies are highly regulated already.
    Second, they treat telescoping and knuckle boom cranes, 
which can fit in the back of a pickup truck even, the same as 
huge tower cranes you see looming over construction sites here 
in Washington, as an example can be seen in this picture. This 
is the type of crane that we use out in the field to set tanks. 
It is not a 40-story crane. It is just a truck with a crane and 
a guy.
    Third, is how OSHA defines both construction sites and 
construction activity. This is something that can serve as 
Exhibit A on the absurdity of governmental regulations. 
According to OSHA, a construction site is considered any 
property where construction activity is taking place, whether 
or not any of those activities are associated or even located 
near the delivery location for a propane tank. For example, a 
propane technician might need to be certified if he were 
dropping off a tank on the ground at a house where a second 
floor bathroom is being remodeled, or at a farm where a barn is 
being painted.
    Even more problematic is how OSHA defines a construction 
activity. A technician would not need certification if the tank 
was simply left on the ground without connecting it to the 
piping; however, if the propane tank is placed on the ground 
and the crane is put away and the technician connects it, that 
could be considered construction activity.
    One concern is that the rule sets two standards for the 
same activity using the same machinery based on arbitrary 
factors. This inconsistency is causing a high level of 
confusion among the industry.
    In addition, the certification cost would be nearly $3,800 
per employee, a total of close to $114,000 for our co-op every 
5 years. Across the industry, the burden would be close to $151 
million over the same time period.
    We are asking the House members to cosponsor the Common 
Sense Certification Reform Act, which provides relief for 
propane field technicians from certifications when appropriate. 
The NCFC also calls on Congress to instruct OSHA to delay the 
November 10, 2018 compliance deadline.
    I would also like to touch briefly on the Department of 
Homeland Security's Chemical Facility Antiterrorism Standards 
Rule. Three Rivers, as many other co-ops, supply anhydrous 
ammonia fertilizer to their farmer members. It is also 
regulated under the DHS's Chemical Facility Antiterrorism 
Standards. Our industry takes its responsibility to prevent 
anhydrous ammonia from falling into the wrong hands seriously.
    Unfortunately, many of the regulations enacted by DHS has 
led to confusion among the agricultural community on how to 
comply. In my written testimony, I have provided detailed 
descriptions of the difficulties that we have in working with 
the DHS. The end result has been that the DHS's advice has been 
vague and without explanation as to steps necessary to reach 
compliance.
    DHS should follow their own regulations to provide clarity 
as to how cooperatives can become compliant without excessive 
costs. Further, they should provide better tools and resources 
to facilities so they can achieve compliance with the standard. 
DHS should also examine how it can partner with state 
Departments of Agriculture so that small cooperatives have 
resources that are easily accessible to help comply with the 
rules.
    Before I conclude, I would also like to note that my 
written testimony also contains details of several important 
regulatory reform provisions contained in the House Farm Bill.
    Thank you again for the opportunity to testify today, and I 
look forward to your questions.
    Chairman BLUM. Thank you, Mr. Martins.
    Mr. Weber, you are now recognized for 5 minutes.

                    STATEMENT OF JOHN WEBER

    Mr. WEBER. Good morning, Chairman Blum, Ranking Member 
Schneider, and members of the Subcommittee. My name is John 
Weber. I am a pork producer from Dysart, Iowa, and past 
president of the National Pork Producers Council, which 
represents the interests of America's 60,000 pork producers and 
on whose behalf I am testifying.
    As has been previously stated, regulations add to the cost 
of doing business, and right now, the pork industry certainly 
does not need more costs. Many of the rules we have seen coming 
out of Washington have had harmful, unintended consequences, 
including stifling innovation and impeding the inherent 
motivation of farmers and small business people to get better 
and more efficient at what they do. One example of a regulation 
that would have devastated the pork industry was the 2010 rule 
from USDA's Grain Inspection Packers and Stockyards 
Administration. It would have dictated the terms of private 
contracts between the sellers and buyers of livestock, 
restricted marketing arrangements, required reams of paperwork, 
and made certain industry practices per se violations of the 
Packers and Stockyards Act, throwing simple contract disputes 
into Federal court.
    According to an Informa Economics study, this rule would 
have cost approximately $4 per pig, or about $420 million to 
our industry. In my relatively small family operation, that 
would amount to over $56,000 in lost revenue or added costs.
    Worst of all, the regulation, which also would have raised 
consumer prices, was a solution in search of a problem. The 
rule had no input from farmers, and as a result, was a gross 
bureaucratic overreach that did an end run around Congress and 
the courts. No economic analysis was done.
    Another troublesome Federal regulation that could have had 
a significant negative impact on agriculture was Waters of the 
United States rule. It broadened the definition of navigable 
waters to include grass waterways, upstream waters, and 
intermittent streams, which are used on many farms for 
drainable or irrigation. It also covered lands adjacent to such 
waters. The rule gave expanded jurisdiction to EPA and the Army 
Corps of Engineers to regulate all kinds of farming activities 
because under the Clean Water Act there is an absolute 
prohibition on discharging anything, including pesticides, 
fertilizer, and even seeds into waters of the United States 
without a Federal permit.
    Bureaucrats wrote a regulation again without input from the 
regulated community that would have subjected farmers to 
criminal penalties and civil fines of up to $38,500 per day for 
planting crops without a discharge permit. And they gave 
private citizens and activist groups the power to enforce this 
rule. Furthermore, this would have been an additional layer of 
regulation.
    One of the biggest fears that I and other farmers had with 
this was implementing conservation practices. We already are 
required to deal with NRCS, the Army Corps, and our state DNRs. 
Would the WOTUS rule have been another hurdle to get 
desperately needed conservation practices in place?
    I do want to make it clear that farmers like myself are not 
opposed to regulations. Believe it or not, there are some good 
ones, and NPPC has even encouraged that some be issued. They 
are in our written testimony. But rules, whether Federal or 
state, should be based on sound science and analysis, be 
practical to implement, and cost-effective, and address actual 
problems that need solutions. And those who will be regulated 
must be involved in developing the rules.
    Additionally, before implemented, regulations should be 
subject to cost-benefit analysis and rules whose costs far 
outweigh their benefits should be scrapped.
    Congress can take steps to ease the regulatory burden. 
First of all, by reforming the Administrative Procedures Act, 
which has not been updated in a significant way in 70 years. 
Secondly, by changing congressional oversight to require 
approval for major regulations, those costing $100 million or 
more. And third, by increasing transparency in rulemaking by 
allowing more public participation in developing regulations.
    This Congress and the Trump administration have done a good 
job of starting to rein in red tape but more needs to be done. 
These are incredibly trying times for America's pork producers, 
and for that matter, all of agriculture. With record production 
built on optimism for global demand and a marketplace that is 
now in disarray, the last thing we need is more burdensome 
regulations.
    Thank you for allowing me to testify today. I would be 
happy to answer any of your questions.
    Chairman BLUM. Thank you, Mr. Weber.
    Mr. Brunkow, you are now recognized for 5 minutes.

                   STATEMENT OF GLENN BRUNKOW

    Mr. BRUNKOW. Chairman Blum, Ranking Member Schneider, and 
members of the Subcommittee, my name is Glenn Brunkow. I am co-
owner of Brush Creek Cattle Company in Wamego, Kansas, a fifth 
generation farmer and rancher with my father, wife, and kids.
    I thank you for this opportunity to provide testimony on 
Federal regulations affecting America's small farmers and 
ranchers. I do so on behalf of the American Farm Bureau 
Federation.
    Right now, as you know, every penny counts in agriculture. 
Farm income is at its lowest level in more than a decade. When 
the business cycle works against you, it makes it even tougher 
to shoulder the costs of regulation, especially when those 
regulations are duplicative, unnecessary, or just plain 
misguided.
    One good example is in Kansas. The Flint Hills region where 
I live is home to the largest undisturbed tall grass prairie 
ecosystem in the world. Generations ago, bison roamed this vast 
expanse and both lightning strikes and Native American tribes 
set fire to the prairie each year. Those fires rejuvenated tall 
grass prairie plans and kept at bay common species found just 
east of the ecosystem's herbaceous plants, deciduous and 
carnivorous trees, without prescribed fires, the ecosystem 
would rapidly change. But prescribed burns in the Flint Hills 
have caused national ambient air quality standard monitoring 
system stations to record an exceedance of either ozone or 
PM2.5 on more than one day. Agriculture producers have worked 
with the state of Kansas in creating a smoke management plan 
and groups like Kansas Farm Bureau and Kansas Livestock 
Association encourage farmers and ranchers to look at 
www.ksfire.org prior to striking a match to see what their 
smoke will affect downwind.
    But even with the 2010 Smoke Management Plan, it is 
becoming more difficult every year to find windows of 
opportunity to successful burn large areas of grasslands for 
fear of knocking an air monitoring station out of compliance.
    KFB and other groups have actively lobbied Kansas's 
congressional delegation and the Environmental Protection 
Agency to create a regulatory mechanism to continue to allow 
for an annual prescribed wildlands to burn and not count toward 
nonattainment exceedances at monitoring stations.
    We are hopeful this can be addressed once and for all so 
all land owners will have the certainty of knowing that they 
can use this tool that Mother Nature and Native Americans have 
known for centuries was the only way to maintain the natural 
ecosystem and keep invasive species and trees from taking the 
Flint Hills.
    Another important regulatory concern is how the Federal 
government implements the swampbuster provisions of the Farm 
Bill. Swampbuster enacted in 1985 was designed to prevent 
conversion of wetlands, but the understanding was that the 
lands created before the enactment would be exempt. 
Unfortunately, the USDA sits as both judge and jury and farmers 
can face repercussions when they undertake basic, every day 
farming activities, such as removing or cleaning up fence rows, 
squaring off or modifying a field footprint, and improving or 
repairing drainage. Cleaning out drainage ditches or removing 
trees in or adjacent to farm fields.
    It should not be that way. USDA should follow the intent of 
Congress and recognize prior converted farmlands once it has 
been converted remains in that status. Farmers should not have 
to fight the Federal government repeatedly to assert their 
rights. Instead, USDA should recognize and accept mandatory 
minimal effect exemption. And just as importantly, the appeals 
process is heavily weighted in favor of the government and 
against farmers and should be reformed.
    The 2015 WOTUS rule is probably the most challenging. The 
rule broadened the definition of a tributary to include 
landscape features that may not be visible by the human eye. 
Make no mistake, the features occur in abundance in our farm 
fields. There is no question the 2015 WOTUS rule would have an 
enormous impact on producers. It is true the rule contains 
exclusions but these are narrow and vague and up to agency 
interpretation. It seems impossible that we would be engaging 
in discussions about what is a puddle or dry land.
    We applaud the proposed releasing of the advanced notice of 
proposed rulemaking which is intended to speed up and ensure 
transparency in how rules are proposed.
    This concludes my statement, and I ask that my written 
statement be included in record in full. I am pleased to share 
these remarks with the members of the Subcommittee and happy to 
answer any questions.
    Chairman BLUM. Thank you, Mr. Brunkow.
    Ms. Ristino, I believe I have that correct, you are now 
recognized for 5 minutes.

                  STATEMENT OF LAURIE RISTINO

    Ms. RISTINO. Thank you, Mr. Chairman.
    Mr. Chairman, Ranking Member Schneider, and members of the 
Subcommittee, I appreciate the opportunity to testify today 
before the Committee on how regulations to ensure human health 
and safety can go hand in hand with supporting the growth of 
small farming and food production operations.
    In my testimony today I will make the following key points: 
Regulation of the agriculture sector is essential to safeguard 
public safety and health. At the same time, in some cases, 
regulations may be better tailored to small farmers and food 
producers by taking into account their different production 
methods and associated risk in a way that ensures health and 
safety while allowing for local innovation.
    Producer financial and technical assistance, as well as 
public research dollars that assess production methods and 
associated risks are needed to help level the playing field for 
small and mid-size producers. Based on these points, I will 
conclude that the question is not whether to regulate but how 
to do so in a way that protects the public while fostering 
innovation at different scales of agricultural and food 
production.
    To that end, I offer several practical suggestions for how 
government can improve regulatory design and outcomes for small 
farmers and food producers. A key area where agriculture is 
regulated is food safety. Indeed, the Federal government's 
police power has long been used in the area of food safety to 
protect the health and welfare of our citizens, often 
preempting state and local laws in creating a ``one size fits 
all'' regulatory regime. Although the American food supply is 
among the safest in the world, the Food and Drug Administration 
estimates over 48 million cases of food-borne illness a year. A 
2015 study by the Ohio State University estimates the annual 
cost of food-borne illness at approximately $55 billion.
    A recent example showing the scale of modern food-borne 
illness outbreaks given the concentration consolidation of our 
food system is the recent E.coli outbreak caused by the 
contaminated romaine lettuce. One hundred ninety seven people 
in 35 states were sickened. The contaminated lettuce was 
eventually traced to Yuma, Arizona, a major growing region of 
leafy greens in the United States.
    The Food Safety Modernization Act (FSMA), which was passed 
in 2011, is the first major overhaul of our food safety 
regulatory system since 1938. FSMA is designed to address the 
type of food-borne illness exemplified by the romaine lettuce 
outbreak. In particular, FSMA attempts to prevent food-borne 
illness in the first place by requiring farms and processing 
facilities to improve recordkeeping and sanitary practices 
associated with producing, handling, and distributing fresh 
fruits and vegetables. This new regulatory framework has the 
effect of allocating much of the cost of food safety to the 
beginning of the food supply chain.
    While Federal regulatory regimes create national uniform 
standards benefitting public health and safety, they can have 
unintended consequences, as you have all noted, for small 
farmers and food producers making market entry challenging or 
too costly. The public's growing interest in local healthy food 
and related support of farmers, farmers markets, and community-
supported agriculture is a bright spot in America's 
agricultural economy.
    To support the continued growth of small farms and improve 
the health of rural economies, it is important to assess the 
impact of regulations in terms of how they support or hinder 
small food and farm businesses and then tailor policy where 
health safeguards may be assured to this growing sector.
    For example, under the Tester-Hagan Amendment to FSMA, 
small farming operations serving only local markets were 
exempted from FSMA's requirements out of a concern regarding 
regulatory burden and based upon the argument that small 
producers do not make large numbers of people sick.
    However, there has been debate and an apparent lack of data 
regarding the actual magnitude of food-borne illness risk 
associated with small farm produced food. One survey of farmers 
and farmers market managers showed that many good food safety 
practices were in place but there was room for improvement in 
production handling and transportation practices. The Tester-
Hagan Amendment reflects a larger debate in which local food 
advocates and producers question the need for across-the-board 
application of Federal health and safety regulations.
    Fortunately, there are a number of strategies that 
policymakers can employ to better align critical Federal 
regulatory regimes to ensure health and safety with supporting 
the growth and innovation of small farmers and emerging food 
economies. One is outreach in developing legislation and 
implementing regulations. Outreach to small farmers and food 
producers and subject matter experts is critical to understand 
the policy needs of these groups and regulatory risks.
    The second is publicly funded food science research. 
Agribusiness and large food producers have the resources to pay 
for research to support the product lines small and midsize 
producers do not.
    Three is financial and technical assistance. Compliance 
with regulatory regimes is not surprising, as also has been 
noted, more burdensome for small producers who have less 
resources to leverage. Consequently, both financial assistance 
to help pay for the cost of compliance as well as technical 
assistance.
    And I yield. Thank you, and I am happy to answer any 
questions.
    Chairman BLUM. Thank you, Ms. Ristino. You mentioned in 
your testimony government regulatory regimes. That is 
interesting. I agree with that, the regime part, especially.
    Now we will be asking you questions, and I will recognize 
myself first for 5 minutes.
    As I have been in politics for the last 5 years and 
traveling Northeast Iowa, when I talk to farmers I kind of 
recognized an interesting phenomena. And that was when they 
dealt with the Iowa DNR, they did not have issues with our DNR. 
And they said, in fact, they coach us to compliance. And I 
wrote that down 5 years ago, coached to compliance. So they 
worked. The DNR in Iowa works with farmers and producers to 
achieve the desired results. However, when the EPA was 
involved, the federal agency, not so much so. They show up with 
a subpoena or the threat of a subpoena at the end of a bayonet. 
And I heard it time and time and time again. And that bothers 
me how a state organization--I do not know the way it is in 
Kansas, maybe you can tell us about that, Mr. Brunkow--but 
coach to compliance, work together versus it is our way or the 
high way. And I would just like to hear from especially the 
three gentlemen that are in business, what your experience has 
been with your state regulatory agency versus the EPA and 
federal regulatory agencies, and have you observed this or have 
you encountered this?
    Whoever wants to go first, fine.
    Mr. WEBER. Mr. Chairman, I would respond a little bit to 
that. I think your assessment is absolutely correct, especially 
with the DNR. I have had the opportunity to work with the DNR 
multiple times and I have always had the impression that they 
were there to help or to help me do a better job. You know, 
there are rules to follow and we have to follow those rules. We 
understand them. We go to training with DNR. But they are 
probably a little closer to the farm level than maybe EPA is. 
But I would sense the same thing in the countryside that you 
did.
    I think it is an issue that is extremely important. I could 
cite the Iowa Nutrient Reduction Strategy as another one of 
those programs that tends to educate and encourage farmers as 
to what they can do. It puts out a little incentive. Let us 
improve water quality. It is not mandatory but here are some 
things that we offer and here is what you can do. And it has 
made huge headways. It has stimulated a lot of interest in 
water quality in the state of Iowa.
    Chairman BLUM. And it is not mandatory?
    Mr. WEBER. It is not mandatory. I call it an incentive 
program. All of these programs such as that, I do not want them 
to become dependency programs, but certainly, I think there is 
a time when incentivization is needed to accomplish a goal, 
maybe better than regulation or mandatory regulation. So 
another observation I would make in the countryside.
    I will yield with that.
    Chairman BLUM. Mr. Brunkow? Kansas?
    Mr. BRUNKOW. I absolutely agree. In Kansas, it works the 
same way. The state agencies are there to help us, to coach us 
through it, to help us find funding, to help correct any issues 
we might have. The smoke management issue that I talked about 
in Flint Hills is a perfect example of that. You know, the air 
quality standards in Kansas City, Omaha, Wichita run really 
close anyway, and when we burn in the spring it just pushes 
them over the edge. We have to burn in the Flint Hills, 
otherwise, we get taken over by invasive species. Fire is the 
only effective management tool to keep them healthy. We have to 
burn when the winds are right. To be safe, to ensure the safety 
of surrounding structures, to ensure the safety of roadways, we 
have to burn when the winds are right.
    The Kansas Department of Agriculture, Kansas State 
University, Kansas Farm Bureau, the Kansas Livestock 
Association all work together to come up with a smoke 
management plan, a website that we can go to and model where 
our smoke is going to go that day, and we are working really 
hard. We understand and we are really aware of the issues 
caused by our smoke. But we also understand there is a very 
limited window of when we can burn and burn effectively.
    We have all seen the wildfires out west, even in Kansas. We 
are trying to reduce our fuel load on those acres also in 
addition to maintaining the health of the prairies. We are 
trying to lower the fuel loads and lessen any catastrophic 
fires along with that.
    Chairman BLUM. Have you had interaction with the EPA or 
federal agencies, and how is it different?
    Mr. BRUNKOW. I have not. My neighbors have. And yes, you 
are right. The EPA is there at the end of a bayonet, whereas, 
our local state agencies show up and they are there to help us 
through and help find a solution.
    Chairman BLUM. Mr. Martins, anything in that area?
    Mr. MARTINS. Absolutely. We are in contact with the IDALS 
daily, if not weekly. When we are doing site remodels or we are 
looking towards the future, we actually call them and ask them 
what is coming down the line, and they will help us be pre-
compliant so that when we are building something new, we 
actually build it so that legislation that could be coming down 
the road, we have already put it in place. And I feel that if 
the EPA or the DHS would work with those guys and get them 
involved, they would be easy to get in contact with to come out 
and help us be compliant because we want to be compliant. We do 
not want to be out of compliance because a fine really hurts 
our company.
    I brought a couple of examples. For an anhydrous facility, 
the Iowa group sends us a checklist. Here is what it takes to 
be compliant. So as you are planning or you are getting 
prepared, you just check off the boxes, talk to the inspectors. 
They will come out and look at it and say, yep, you are 
compliant. The DHS, there is a lot of ambiguity with what is 
giving. You know, some of it is classified, some of it is 
sensitive, obviously, in the algorithm that makes you compliant 
or out of compliance. But really, just give us a checklist of 
what we need to do to be compliant and we will do it.
    Chairman BLUM. Thank you. My time is expired.
    I now recognize Mr. Schneider, the Ranking Member, for 5 
minutes.
    Mr. SCHNEIDER. Thank you. Again, thanks to the witnesses 
for joining us today.
    I am trying to think through the framework. You know, I 
think about regulations. I sense or focus on three compatible 
goals but one is working to ensure and preserve the prosperity 
of our farm sector, including and specific to our small farms, 
our family farms. At the same time, we want to ensure the 
safety and security of our food supply. And thirdly, it is the 
health protection and sustainability of our environment. And 
collectively, that is what we are trying to achieve, ideally 
collaboratively. Like you said, coach to compliance I think 
makes sense.
    All of you kind of touched on this idea of unintended 
consequences or sometimes not seeking to do the right thing 
perhaps but not understanding the implications for small farms. 
And I would like to focus on that.
    Ms. Ristino, I want to give you a chance because in your 
remarks you talked about strategies--outreach, funding 
research, providing financial and technical assistance. You did 
not get to your fourth one, which was improving regulatory 
design, which I think touches on what we were talking about. 
What do we have to do to improve regulatory design? And I will 
open it up to everyone but I will start with you, Ms. Ristino.
    Ms. RISTINO. Thank you for that because I was not able to 
get that last point. It is actually something we do a lot at 
the law school and we try to teach lawyers this because we do 
not always do a good job with that in law school, is to really 
make legal regulations and requirements and law, actually, more 
accessible to the people who have to comply or to the people 
who are protected by those laws. And so I think there are, 
especially with the emergence of, you know, digital websites 
and apps and things like that, there is a way that we can take 
really complicated information, and to my other colleagues here 
at the table, make that more accessible to farmers. Like, for 
example, we actually have a farmland access toolkit we put 
together, which is more accessible. And it is actually designed 
so that farmers who want to get on land can easily access that. 
We are also creating a free leasing application because a lot 
of farmers do not have easy access to land or they do not have 
the ability to get a lease without spending a lot of money on a 
lawyer. So there are many different ways that I think both 
regulators and folks in Congress and state legislatures can 
make information more accessible by designing it to be that 
way.
    Mr. SCHNEIDER. And let me turn to you, Mr. Brunkow. In your 
testimony you talked about, and maybe you can explain it, how 
can agencies, regulators engage better with our farmers and 
ranchers when they are drafting regulations or writing the 
rules and laws that are going to affect what you all are doing?
    Mr. BRUNKOW. I think just to talk to us to find out what 
will work in the country. We want to do the right thing. We 
breathe the same air. We work with the same soil. My family has 
been there for well over 100 years, 130, 140 years. We want to 
make sure that that is there, too. We eat the same foods. So we 
want to work with you. We just need to make sure that those 
regulations are not burdensome. We need to make sure that they 
are regulations that we can comply with easily and just help us 
to make those regulations something that does not crush us in 
terms of what we have to do to comply with them.
    Mr. SCHNEIDER. Mr. Weber, do you have thoughts?
    Mr. WEBER. Well, I have some thoughts. You know, I think 
our Federal agencies need to work through the states because I 
think a lot of small business and farmers feel more 
comfortable. Just with Chairman Blum's comments, they feel more 
comfortable working with a state agency and more local people. 
And I think if they work through the DNR or they work through 
even local FSA offices and so on and so forth, or extension 
work, farmers are much more receptive to that type of help than 
receiving a rule that is printed in the Federal Register and 
how are we going to comply with this? And not having had the 
chance to have some input into that rule.
    Mr. SCHNEIDER. And let me bring it back because the focus 
is on the small farms. What can we do to help the small farms? 
You have got your large corporate operations and they have 
resources and facilities, experts with very narrow focus, but 
the small farm, small farmer is responsible for everything. How 
do we help make sure they have the resources to do what they 
need to do?
    Mr. WEBER. I think in certain cases that can be a real 
challenge. Because there are larger organizations that do. They 
have funding to provide legal staff to do paperwork, things 
like that that small farmers may not. That is a tough one.
    Mr. SCHNEIDER. My red light is on. I am out of time. But 
Mr. Martins, if you have something you want to add? Or I will 
yield back otherwise.
    Mr. MARTINS. I think just include the states because we are 
interacting with them every day, all day. You know, we can call 
them and they will come up within a couple days if it works out 
for them. But I do not have a problem dealing directly with the 
Federal people, but bring the state along so that they can be a 
resource for us, too.
    Mr. SCHNEIDER. Thank you. And I will close with this, Mr. 
Brunkow, you touched it and we all nodded our head. We all 
breathe the same air. We eat the same food. I think we are all 
in this together. So thank you, and I yield back.
    Chairman BLUM. Thank you, Mr. Schneider.
    And I will recognize my esteemed colleague from the great 
state of Iowa, Mr. King, for 5 minutes.
    Mr. KING. Thank you, Mr. Chairman. I thank the witnesses 
for your testimony. I know that there are three Hawkeyes and a 
Wildcat down here. Or how we missed the Fourth District, but I 
will not bring that up. I would just win the argument if I did. 
And I appreciate everybody bragging about the production that 
we do in each of these sections that feed the world. I mean, it 
is something for everybody to take great pride in. And to go 
back, I think it is at 140 years, Mr. Brunkow, and that tells 
me family operation that is tied together, and I hope it can go 
on for a long, long time. That is the American dream being 
lived out, and that is true across the board here in some ways 
one way or another.
    I would like to first turn though to Ms. Ristino. And I 
want to ask just kind of a basic question. We are talking about 
regulation here. Where does the authority come from for the 
Executive branch to regulate our farmland in this country?
    Ms. RISTINO. The laws that Congress passes.
    Mr. KING. So I want to make this point, and I will just ask 
you if you agree with me that Congress has delegated the 
regulative authority to the Executive branch of government who 
writes rules and regulations promulgated, published under the 
Administrative Procedures Act that have the force and effect of 
law; fair enough?
    Ms. RISTINO. Well, I mean, a bit of that authority is in 
the constitution, but yeah, because it implements the laws. But 
I think there is a complication with the APA. But yes, I 
generally agree with what you said.
    Mr. KING. In that there would not be any regulatory 
authority for the Executive branch if Congress did not 
authorize them to have the authority to do so?
    Ms. RISTINO. Through the APA. It is kind of like a mini 
legislative process.
    Mr. KING. Yeah. And so where I am going is that Congress 
has delegated this responsibility to the Executive branch of 
government, I think in part, knowing politics like I do, 
because they did not want to face the minutia of burden that 
comes down on that. They had people who were appointed in the 
branches that they had created, in the Executive branch that 
they had created that were experts in the field. And so 
therefore, in order to delegate that responsibility and get it 
away from Congress, they have created the Administrative 
Procedures Act and a number of other acts that established this 
regulation. I want to ask you a question. I just assert that. 
And if you would shake your head I would listen to rebuttal.
    So I put that down because I think Congress has ducked its 
responsibility and I listened to Mr. Weber call for some 
changes in the APA, and reform was the language they used, Mr. 
Weber, and I think you also advocated for what we refer to here 
as the REINS Act, which is any regulation that has more than 
$100 million in impact to our economy is required under that 
act, which has not passed the Senate yet but it does sit on 
Mitch McConnell's desk right now, that it has to come back to 
Congress for an affirmative vote before it has the force and 
effect of law. I certainly support that, but I wanted to expand 
a little more on that because if we get a REINS Act out of the 
Senate, I am really confident the president will sign that as 
quick as he can get his pen to the paper. But it does not 
address the regulations that exist up to this point. It 
grandfathers them all in. So do you have any suggestions on 
what to do with that, Mr. Weber?
    I put you on the spot here.
    Mr. WEBER. Yeah, you are putting me on the spot, other than 
I would, you know, if there could be some type of, I do not 
know, of review at least or go back a certain amount of time, 
you know, to look at the cost of these regulations. And we had 
a discussion in our office this morning about the number of 
$100 million. And we came to the conclusion that any time you 
impact an industry to that extent, I do not care whether it is 
a large industry or a small industry, I think there needs to be 
a second set of eyes that would look at that regulation and 
hear input from your constituents on how it may or may not 
impact. So that was a number we put in there.
    Mr. KING. It was also the number that was written into the 
REINS Act.
    Mr. WEBER. Yes. Yes.
    Mr. KING. So it conforms to that.
    I just serve back a suggestion, and that is that of all the 
existing regulations and the new regulations, whether they are 
$100 million more or less, without an amount to it, and I 
propose that the agencies serve up a minimum of 10 percent of 
their regulations each year to Congress to be reexamined and 
that they would sunset if Congress does not affirm them with an 
affirmative vote. And that way we would scour through all the 
existing regulations. We would reset them over a period of a 
decade and then any new regulations, eliminate that $100 
million and just allow for any new regulations have to come 
back before Congress. I think we would pass most of them in a 
block, and those that were brought to our attention, like 
WOTUS, we would examine that and it would be the voice of the 
people rather than the agency.
    I see you nodding your head, Mr. Brunkow, so I would like 
to hear what you would say to back up that statement. Leading 
the witness, I confess.
    Mr. BRUNKOW. Well, certainly, any time that we would have 
advance notice in review of regulations I think would be really 
good. Too often we do not know about, do not see those 
regulations until it is almost too late.
    One thing that did alarm us about WOTUS was the EPA's 
campaign on social media to promote the rule, the WOTUS rule. 
There were several posts on Facebook, on Twitter, leading 
people to support their proposed rule changes. So, that really 
concerns me when I have a government agency trying to lead.
    Mr. KING. In conclusion, as my time has run out, I would 
just say that that that I have described also sits on Mitch 
McConnell's desk, and the press did not hardly catch it. So if 
you all want to go back and take a look at that, I think we can 
have a continuing conversation on how to get this government 
right and hold Congress accountable so that you are not 
burdened by overregulation.
    Thank you, and Mr. Chairman, I yield back.
    Chairman BLUM. Thank you, Mr. King.
    Welcome to Chairman Chabot, who is the Chairman of our 
entire Small Business Committee. Thanks for being here today.
    And now I would like to recognize Dr. Marshall for 5 
minutes.
    Mr. MARSHALL. Thank you so much, Chairman.
    Glenn, most of our brothers and sisters, they moved off the 
farm, and you came back to the farm. What is your passion? Why 
do you do it? What do you love about farming? Why do you wake 
up in the morning?
    Mr. BRUNKOW. Well, there is just something about living on 
the land, knowing that I am there working the land that my 
grandfather, my great grandfather, my great great grandfather 
worked, working with my father every day, and I am very 
passionate about the crops I produce, the livestock that I 
produce. We are really tied to that land, and I want to make 
sure that I maintain it, I grow it, I develop it, and I have 
something there for my kids to come back to.
    Mr. MARSHALL. Yeah, I think that is something that I am not 
sure all the city dwellers realize is that most farmers are 
cash poor. And we think about what are you leaving to your 
children? Is there anybody more motivated than you to make sure 
that your children have rich soil? And you guys are blessed 
with much richer soil than I have in my part of the state. What 
is your vision for your children and your grandchildren with 
that land that you are using?
    Mr. BRUNKOW. Well, certainly, I want them to come back to 
it, and I want to maintain it the way it is. We talked about 
the Flint Hills being the last area of tall grass prairie, the 
biggest area left. I certainly want to maintain that. We do 
want to do what is right and we want to make sure that we 
maintain our environment, that we produce safe food, but our 
margins are razor thin and we want to make sure that we have 
the ability to maintain our businesses for the long term.
    Mr. MARSHALL. And certainly, these regulations, every 
regulation adds up to your input cost. Maybe we will talk about 
WOTUS here for a second, the swampbuster.
    Do you guys have terraces on your farm?
    Mr. BRUNKOW. Oh, yeah.
    Mr. MARSHALL. I remember as a young kid growing up and my 
grandfathers building these terraces. And then I woke up as a 
congressman and now they want to regulate the runoff from the 
water. Can you just maybe explain, I think people have this 
vision of what a wetland is, what we are regulating. And talk 
about a field with a terrace that your grandfathers made. Maybe 
it was your great grandfather. You are a little younger than 
me. Those terraces and the runoff and a little bit about soil 
erosion, and just kind of run with water conservation and soil 
conservation.
    Mr. BRUNKOW. Sure. The terraces and waterway systems that 
we have in our fields are meant to slow down the water running 
across those fields, slow down and maybe in some cases 
eliminate erosion. And we want to make sure that we maintain 
that topsoil on the field. They catch the water. The terraces 
are berms that are across the field. They catch the water and 
they direct them into a waterway that is grassed, grows grass 
and filters the water and slows it down before it hits the----
    Mr. MARSHALL. And then when WOTUS comes along what happens 
to some of that runoff?
    Mr. BRUNKOW. It is all classified as Waters of the United 
States, and therefore, regulated by the EPA.
    Mr. MARSHALL. So my point is, our grandfathers making great 
conservation practices and now I am being penalized for the 
great work that they did.
    Mr. BRUNKOW. Exactly.
    Mr. MARSHALL. And again, I am out hunting a lot in these 
big pivots of cornfield and I look down in the corners and I 
will say, why are we not farming that? And they will say it is 
a wetland. I mean, when I envision a wetland when I am sitting 
here reading about them in college, I was envisioning this 6 
inches of water, a foot of water year-round, thousands of ducks 
on it and flamingos or something. What are wetlands to you 
guys? Just describe some of the wetlands that you have to work 
around?
    Mr. BRUNKOW. Some of them are no more than in the spring 
when it is rainy, places that collect water. And you know, it 
is very temporary in most cases.
    Mr. WEBER. Basically, the function of a wetland is to slow 
water flow down, and it serves some other purposes as well. But 
again, we are seeing a few more of them in the state of Iowa, 
some actually trying to be established, especially with large 
tile drain areas, to run them through a wetland before the 
water does reach a stream. Usually, a grassland and to me it is 
a method that is really being explored and getting a lot of 
press as far as being a new water quality.
    Mr. MARSHALL. So with or without WOTUS, you, as a producer 
that owns the land, I assume are trying to work with those 
situations and try to figure out what is best to prevent the 
water erosion and things?
    Mr. WEBER. Absolutely. I have to keep referring to Iowa's 
Nutrient Reduction Strategy. I think it was just a great 
program that was developed at the right time. My son is a sales 
rep and has about 75 to 80 customers, local farmers that come 
in, and it is amazing how that has blossomed in our area, the 
use of cover crops, simple things that farmers can afford to do 
and work into their programs. The interest in conserving and 
building soil----
    Mr. MARSHALL. We are in.
    Mr. WEBER. It is. It is what farmers live for. It is what I 
live for. I want to leave my soil better than when I got it for 
my next generation. And do not see near as much abuse of 
farmland as I did maybe 20 or 30 years ago, and I am more than 
impressed with a bunch of the young farmers in our area that 
really want to adapt these practices, whether it is for an 
economic reason for a conservation reason. They are aware of 
the pollution in the Gulf and they are aware of what is going 
on. And so to me you are seeing a lot being done in the 
country, especially in Iowa. And I really credit the program 
for getting the ball rolling. And I think we are going to 
accomplish what we set out to accomplish.
    Mr. MARSHALL. Thank you for all what you do. I yield back.
    Chairman BLUM. Thank you, Dr. Marshall.
    I now recognize the gentleman from Kentucky, Mr. Comer, for 
5 minutes.
    Mr. COMER. Thank you, Mr. Chairman. It is always good to 
see fellow farmers in Washington on the Hill testifying.
    My first question is for Mr. Weber. We have a fair amount 
of pork production in Kentucky, the majority of which is in my 
congressional district. Can you give us a quick example of some 
of the Federal permits you are required to have to operate a 
hog barn?
    Mr. WEBER. Well, basically, from the state of Iowa's 
standpoint, I certainly can. We are required to go through a 
master matrix program in the state of Iowa. DNR is involved 
with that. They have basically final approval of that. It goes 
through our county board of supervisors. It is a points-based 
system on siting new facilities. Not easy to do. It is not easy 
to do. It is not easy anymore to find a location that will 
gather you enough points in the master matrix to build any 
sizeable type operation. There is still room for some 2,400 
head finishing sites and so on, but when you start going to 
4,800 or larger sites, it is extremely difficult to get siting. 
And there is a lot of objection to a lot of those that are 
done. But the master matrix, what we use in Iowa, again, I 
think a very good program. We want buildings to be built in the 
right place, that they are not offensive to neighbors, and so 
on and so forth. I think it is working very well, but it is 
coming under more and more scrutiny every day.
    Mr. COMER. How long does it take the average farmer if they 
wanted to get all the permits necessary to begin construction 
on the infrastructure?
    Mr. WEBER. I would say you better plan on 2 years. A 
minimum of 2 years' time.
    Mr. COMER. And that is the same problem we are having in 
Kentucky. It is very unfortunate. Very few business plans would 
succeed in any industry if it took 2 years to get approval from 
the permitting process. So that is an issue that obviously we 
need to try to work on. I think the president, with his focus 
on reducing the regulatory burden on small businesses, I think 
he is aware of this. I know Secretary Perdue is. It is 
something that as a member of the Ag Committee, it is certainly 
important to me, and we are going to keep trying to streamline 
the regulatory process to get the Federal government out of the 
way for the private sector and allow a quick decision. It does 
not take 2 years to decide whether or not that permit is going 
to be approved.
    My question for the farmers on the panel, how would the 
revitalization and the possible expansion of the H2A program 
benefit the Ag sector in my home state of Kentucky where we 
have poultry, we have tobacco, soybeans, corn. These are the 
top commodities in Kentucky. Can you all touch on that?
    Mr. WEBER. Agriculture is in desperate need of a workforce. 
The pork sector and the poultry sector are together on this. 
The H2A program, H2AC program would allow these people to come 
into our country for at least 10 months to a year's time. We 
need that. We desperately need that.
    We have got plants, we have new packing plants in the state 
of Iowa that are not going to second shift because they cannot 
get enough help. They cannot get enough labor. We have got 
plants under construction that I know the owners of that lay 
awake at night worrying about getting the help to man these 
plants when they are up and running. And so I think it is a 
huge issue for agriculture. It is absolutely a huge issue and 
we need some reform to allow these people to come to our 
country that are willing to work and have a set of criteria to, 
whether they go back or renew their visa or whatever it is, we 
desperately need that in agriculture.
    Mr. BRUNKOW. And I absolutely agree with Mr. Weber. We have 
to have those workers. They are very necessary for us to 
produce the food and fiber we all need. We need some sort of a 
common sense streamlined approach to that. I know many of our 
plants, just like Mr. Weber said, are struggling to find 
workers, worry about the documentation of the workers they do 
have. And so we need to find a way to help out the people that 
are willing to work and help us.
    Mr. COMER. One last question. Could you touch real quickly 
on the impact the ELD is having with livestock transportation? 
I represent, my district goes all the way to Eastern Kentucky, 
and it takes a long time to haul those cattle from Eastern 
Kentucky or even the Carolinas and Virginia all the way out to 
the Midwest, to the feed lots. We have worked hard to get the 
exemption for livestock haulers. My time has run out but real 
briefly touch on that impact of that regulation.
    Mr. BRUNKOW. There is another regulation that needs some 
common sense applied to it. As livestock haulers, you have got 
to get the livestock from point A to point B in a timely 
manner. It may take a little bit longer than those regulations 
require. And just the burden of the electronic logbooks are 
burdensome.
    Mr. WEBER. Another classic example of exactly why we are 
here. We needed to hear from the livestock sector before rules 
were printed and implemented, and I think that is going to 
happen. I think we are going to have the opportunity to have 
input in that, but certainly, hauling perishable goods is 
different than hauling a lot of other material. And we want to 
be safe. We want to have good equipment. But it is a different 
world out there when you are hauling livestock. Fourteen hours 
in a day, a total of 14 may or may not be enough to get the job 
done.
    Mr. COMER. Thank you all very much. I yield back, Mr. 
Chairman.
    Chairman BLUM. Thank you, Mr. Comer. I noticed you omitted 
Kentucky bourbon as one of the products of your state. Is that 
on purpose?
    Mr. COMER. No. No. I am proud of the bourbon, especially 
Maker's Mark which is in my district.
    Chairman BLUM. Thank you for those excellent questions.
    I would now like to recognize the gentleman from Ohio, 
Chairman Chabot, who is also, as I said previously, Chairman of 
our full Small Business Committee.
    Mr. Chairman, you are recognized for 5 minutes.
    Mr. CHABOT. Thank you, Mr. Chairman.
    And even though I am the Chairman of the Full Committee, I 
am actually on other Committees as well, and I was in Judiciary 
for the past hour or so. So that is why I did not make it 
earlier. And I apologize. And some of the questions that I may 
ask may have already been asked or you may have referred to 
them in your testimony. If so, I apologize. But it never hurts 
to let it sink in twice or sometimes multiple times. Or at 
least I find that to be the case.
    So my first question I would like to ask you about is we 
hear a lot that one of the groups that is most significantly 
adversely impacted by the estate tax is farmers. And small 
businesses also in general can be impacted, and of course, by 
definition, most farmers are small businesses. But have you 
seen, do you know stories about, is that true or is that just a 
myth? Sometimes you will hear from folks who are not concerned 
about that. They will say, oh, that is really not true. But I 
think it is, and I have heard from others. Would anyone like to 
comment on that about the impact of the estate tax on farmers?
    Mr. BRUNKOW. Oh, it is absolutely true. One my family 
worries about constantly. As I said, one of our farms we 
homesteaded in the 1860s. That has been passed down through the 
generations. And as we pass that through it gains value every 
time. We may be cash poor but our net worth looks pretty good. 
But when it comes to, you know, one of the things I worry about 
is paying the taxes, that burden, when the income just does not 
add up. We have no intention of ever selling any of the 
property we have. That property is part of us. That property, 
it is as much a part of me as anything and I cannot imagine 
selling it. But the burden that the estate tax would bring if 
it was passed directly on down to me might force some of that. 
I certainly do not have the cash on hand, and I do not really 
want to refinance to pay for the estate tax.
    Mr. CHABOT. Yeah. And as you know, I mean, we have a long 
time in this country bemoaned the fact of the fewer and fewer 
family farms being out there and what an important part of the 
American being, the American story family farms are.
    Have you heard, is it true that sometimes literally the 
family farm does have to be sold and does not go down to the 
next generation because it has to be sold literally to pay the 
taxes? Anybody?
    Mr. WEBER. I think that scenario could easily exist. I 
personally have not heard of that happening. I think about this 
a lot at my age. But I guess I might have a little different 
view. The estate tax does not bother me if the exemption keeps 
up with inflation or is above, you know, where it is now, in 
our area that probably is okay. If we eliminate the estate tax, 
we need to keep a stepped up basis for our errors. Those would 
be comments I would make on it. We cannot give them both up 
because that is absolutely not going to work. If you have 
multiple children in your family and they may want to sell some 
property, they cannot be hit with the tax. So, stepped up basis 
is critically important to us. The estate tax, it could and can 
be a big hit if people have not planned for it. And certainly, 
increasing the exemption, the lifetime exemption was, I think, 
the right move because it was well overdue for where inflation 
was and the price of land.
    Mr. CHABOT. And as you have mentioned the exemption, it was 
in the Tax Cuts and Jobs Act that was passed last December that 
the president signed into law, did double the exemption.
    Mr. WEBER. Yes.
    Mr. CHABOT. And so I assume you would agree that is 
certainly a step in the right direction?
    Mr. WEBER. Yes.
    Mr. CHABOT. Okay.
    Mr. WEBER. Correct.
    Mr. CHABOT. Many of us did want to and still want to 
eliminate it all together. We think it is unfair that when an 
individual or family who has already paid taxes on it once, 
that it is not right to pay taxes again on it another time 
based upon death. We think that is unfair, but we do think 
this, and I notice by nodding, both, at least you gentlemen 
agree that that was the proper move.
    Thank you very much, Mr. Chairman. I yield back.
    Chairman BLUM. Thank you, Chairman Chabot.
    We are now going to start our second round of questions. 
And I would like to recognize Mr. Schneider, the Ranking Member 
for, well, as long as he wants to take.
    Mr. SCHNEIDER. I will be quick, but actually, Mr. Brunkow, 
I want to talk to you. Just dig a little bit more about the 
Flint Hills because you touched on it. And it is a unique 
ecosystem, not just in Kansas and Oklahoma but in the entire 
country, distinct. And you talked about the need to have the 
annual burn, controlled burn.
    What are the invasive species you worry about, and what 
would be the impact of those species coming in?
    Mr. BRUNKOW. Well, it starts out as shrubs, whether that be 
bock brush, dogwood, those kind of things. Builds up to cedar 
trees, eastern redcedar tree, and eventually, larger trees. It 
just progresses. The pretty ecosystem is not a stable ecosystem 
and it wants to progress into a forest if left alone. Without 
the fire, it will progress. And there is plenty of examples of 
that just around my hometown where development has not allowed 
for burning and brush has not been controlled. And you can see 
the shrubs turn into small trees. Small trees burn into large 
trees. And eventually, you have a forest area with a lot of 
underbrush, with a lot of fuel, and there again, I talked 
about----
    Mr. SCHNEIDER. The second issue; right?
    Mr. BRUNKOW.--the wildfire danger, which is a very real 
danger. But also, you lose that ecosystem.
    Mr. SCHNEIDER. I want to take it to the logical conclusion. 
What is the impact to our industry of the prairie moving to a 
progression towards forest rather than prairie?
    Mr. BRUNKOW. We lose a lot of grazing lands that we use for 
our cattle right now. As that progresses, as the brush takes 
over, as the invasive species take over, the grazing capacity, 
the carrying capacity of those lands is greatly diminished, if 
not completely lost.
    Mr. SCHNEIDER. Right. And I know the answer but I am going 
to ask it anyway. There is a reason that this is cattle land 
and not like Kentucky, Illinois where I am from, Iowa, we are 
not growing corn because of the terrain and the ecosystem.
    Mr. BRUNKOW. The terrain and the rocks.
    Mr. SCHNEIDER. Right. So it is not that you replace one for 
the other; it is cattle thrive in this ecosystem. I am going to 
say this wrong. Farmers will struggle harder because you cannot 
till the soil. So the need to maintain the ecosystem as a 
prairie is important.
    Mr. BRUNKOW. Exactly.
    Mr. SCHNEIDER. I am asking leading questions but that is 
where this is unique. When we set rules across the country, we 
have to be able to have the--and we talked earlier about Mr. 
Martins working with the states, understanding of each 
ecosystem is different.
    I want to turn to you on that, Ms. Ristino, because you 
come at this from both having been in the Federal government, 
but also studying it and trying to understand it. How do we do 
better at this? And you touched on this a little bit with your 
strategies, but I am going to give you the last couple of 
minutes of my time. What are the takeaways we should, as 
policymakers, focus on to say we have to do a better job of 
creating that balance to ensure the prosperity of our farms, 
protect our environment, and the security and safety of our 
food supply?
    Ms. RISTINO. Well, it sounds simple but we have to work 
together. I mean, because clearly we have real environmental 
challenges, especially with climate change. And then loss of 
soils, clean water, and we want to be food secure moving 
forward. We want to encourage farming. We are losing farmers. 
Farmers are getting older and going to retire. Much of the land 
will be turning over to hopefully new farmers. And so estate 
planning and working together to make sure that we have that 
next generation and that we protect those resources is really 
important. But I think it takes a lot of hard work. And my 
colleagues here at the table talked about the fact that working 
with the state has been easier than NRCS, who used to be a 
client of mine, but I know that NRCS tries to be highly 
collaborative and works with organizations like Ducks Unlimited 
or Pheasants Forever and works with the states and works with, 
say, the Iowa Soybean Association. Those highly collaborative 
relationships with farmers on the ground and with the 
institutions that those farmers are familiar with are 
incredibly important but it does take a lot of work and we have 
a lot of challenges. But there are places like Iowa, excuse me, 
that has made some real strides with nutrient management. There 
are also places in Wisconsin that have been successful as well 
working together on watersheds. But it takes a lot of 
collaboration and the real will to voluntarily, collaboratively 
come together to make those changes.
    Mr. SCHNEIDER. Thank you. I appreciate that.
    And I will use my last couple of seconds to emphasize two 
other points.
    Immigration reform, as you touched on, Mr. Weber, we need 
to make sure that we have that work supply and I think there 
are ways we can find to work across the aisle to do that.
    But we are also losing people. Your family is unique. Not 
unique, but it is distinct. Too many people are leaving the 
Heartland, if you will, but creating opportunities, whether it 
is education. We have veterans coming back, and whatever we can 
do, especially to help veterans, maybe go to farming for first 
generation would be a wonderful thing.
    So with that, I yield back.
    Chairman BLUM. Thank you, Mr. Schneider.
    Brad mentioned the word ``balance,'' and that leads me 
right into my question. I tend to think of it as right-of-way 
lines and, you know, businesses, I am a small business person, 
we can handle regulations as long as they fit within the right-
of-way lines. Are you with me? So they are reasonable, you have 
time to adapt to them so they do not bankrupt your business, 
you do not have to hire a bevy, with all due respect, a bevy of 
lawyers to comply. So I would like to hear from the three 
gentlemen that are in business, are we inside or outside the 
right-of-way lines? And I would like to hear from Iowa and 
Kansas's standpoint. Are your states inside or outside? And 
then the federal government, are we inside or outside the 
right-of-way lines? And if we are outside, is it because the 
rules are too complex? Is it because it takes too much time to 
comply with them? Is it because it is too much out-of-pocket 
expense? And so I would just like to hear your thoughts. Inside 
or outside the right-of-way lines? Federal government versus 
state?
    Mr. MARTINS. I would say the state is inside the lines. 
They make sense. And they come and talk to us and they help us 
get ready. The Federal government sometimes falls outside of 
the lines because they are trying to make one compliance rule 
fit everything and they need to get more input to make it 
adjustable. You know, you still have to have rules and you 
still have to have compliance, but not everything is going to 
fit into one highway I guess I would say.
    Chairman BLUM. Mr. Weber?
    Mr. WEBER. And I think there have been times. I think the 
two I highlighted in my presentation were two that I would say 
got outside the line. Big regulations affecting the entire 
country, and there just was not enough input. I am talking 
about the WOTUS rule and I am talking about the GIPSA rule. And 
so to me those were two that to me got outside the line. There 
are a lot of regulations, Federal regulations that have come 
down to us that I think are very workable and livable that we 
live with every day. It has got to be the challenge. It is 
about this transparency I talked about. I think if we can be 
more transparent, I think we can stay in the lanes that you are 
talking about.
    The industry you are trying to regulate needs to be 
involved in some way, shape, or form, or at least have a chance 
to have input into developing the regulation to achieve the 
goal you are after, whatever agency it is, whether it is EPA or 
whoever it might be, OSHA, whatever it might be. I think they 
need to talk to these people, make it more of an education, 
more of an incentive type process than just say we are going to 
write it and you are going to live by it. And that does not sit 
well in the country.
    Chairman BLUM. Mr. Brunkow?
    Mr. BRUNKOW. I would absolutely agree. Our state has been 
within those right-of-ways for the most part. Federally, we 
veer out of them, sometimes fairly severely, in the case of 
WOTUS, and there needs to be more transparency. There needs to 
be more input from those affected by the regulations. And as I 
said, we want to work with them. We want to work with and 
ensure that we are doing the right thing, but there is a limit. 
And you asked if they were burdensome, if they were expensive. 
Yes. The answer is yes. They can be.
    Chairman BLUM. I thought it might be.
    Mr. BRUNKOW. We want to make sure that they are common 
sense, that they work for us, and that we can live within that.
    Chairman BLUM. And then, Ms. Ristino, one of the parts of 
you presentation today, testimony, was outreach. And what I 
hear here is I am hearing the states are within the right-of-
way lines. Federal government can get outside of the right-of-
way lines. So is this an outreach program? Is it a problem or 
is it a problem with not getting enough input when they are 
making these rules and regulations? Or both?
    Ms. RISTINO. Well, I think when you are at the Federal 
government and you are governing essentially the entire 
country, you cannot have or you do not have naturally that 
close connection except through your representatives to 
Congress because it is so large. But I do think there are ways 
that we can innovate that are better than notice and comment 
because there are only certain groups and certain people that 
have enough access or wealth or time to really feel that they 
can access that kind of method of providing input. I think we 
saw that with the FSMA rollout that notice and comment was not 
enough and the FDA did listening sessions and went around. And 
I know the USDA also does listening sessions especially during 
a Farm Bill cycle. I think that, but also, there are going to 
be other ways, too, that we can have better communication and 
outreach and more productive conversations regarding how we can 
work together to actually make changes on the ground that do 
not harm producers but also make real measurable improvements 
to the environmental outcomes on working lands in America.
    Chairman BLUM. Thank you. And that was votes, so the timing 
worked out beautifully here.
    I would just like to make some closing remarks briefly. I 
would like to thank our witnesses for being here today. I 
thought your testimony was excellent. It was a great 
conversation. We appreciate your testimony very much.
    It is clear that we have more work to do to ensure that our 
nation's small farmers, who play a vital role in our economy, 
are not being hurt by federal regulations. A ``one-size-fits-
all'' approach to federal regulations is not the right approach 
for small farmers.
    As chairman of the Subcommittee on Agriculture, Energy and 
Trade, I look forward to working with my colleagues to find 
solutions that will lighten some of these regulatory burdens 
that have been discussed today, not only for our farmers but 
for all small businesses across our great nation.
    I now ask unanimous consent that members have 5 legislative 
days to submit statements and supporting materials for the 
record.
    Without objection, so ordered.
    And if there is no further business to come before the 
Committee, we are adjourned. And I would just like to adjourn 
with the final words, I think it was Mr. Brunkow said, we are 
all in this together, basically. So more communication would be 
a great thing.
    And that concludes our hearing. Thank you very much.
    [Whereupon, at 11:48 a.m., the Subcommittee was adjourned.]
    
                            A P P E N D I X

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>
</pre></body></html>
